                                                              United States Department of State
                                                              and the Broadcasting Board of Governors

                                                              Office of Inspector General


                                                                     SEP 1 9 2011



MEMORANDUM

TO:            RM/CFO - James L. Millette            a
                                            /If/;/(
FROM:          OIG - Harold W. Geisel /      [''"

SUBJECT:       Final Report on Audit Survey of Department ofState Approach To Developing an
               Automated Time and Attendance System (AUD/IT-11-41)

The Office ofInspector General (OIG) initiated an audit of the Department of State's
(Department) approach to developing an automated Time and Attendance (T&A) system. The
objective of the audit was to determine to what extent the Department has (1) considered relevant
business processes in developing the T &A system requirements, (2) coordinated with system
users to ensure needs are addressed, and (3) addressed applicable information security
requirements. (The scope and methodology are described in Attachment 1.)

During the audit survey, OIG learned that the T&A phase of the Global Foreign Affairs
Compensation System (GF ACS) project is still in the planning and development stages and that
no system has been selected. In addition, implementation documentation relating to T &A
project management and systems has not been developed. As a result, OIG determined that it
was not prudent to proceed with the audit because implementation of the T &A system was not at
a state of development where performance of audit steps and procedures would deliver
meaningful results. However, the audit survey revealed three areas that require RM's attention:

       •   Business Case

           The GF ACS Exhibit 300 submission does not include a business case for the T&A
           phase of the project, as required by the Foreign Affairs Manual! (F AM). Lack of a
           clearly defined business case for the T&A phase will hinder the Department's ability
           to effectively define measurable success criteria for the T &A phase of the project.
           These criteria are essential for determining whether the project resulted in the benefits
           defined in the business case.



15 FAM 623, "Business Case."


                                                 1
                                        UNCLASSIFIED
                                                UNCLASSIFIED


            Requirements Analysis

             It was unclear whether a comprehensive requirements analysis had been performed to
             identify and address customer or user needs and expectations. Conducting a
             comprehensive requirements analysis at the beginning of the T&A phase of the
             GFACS project is necessary to help ensure the commercial off-the-shelf (COTS)-
             based T&A system selected will meet business, user, or interoperability requirements.

             Project Management

             The GFACS project management plan does not include information on the T&A
             phase of the project. The T&A phase of the implementation therefore lacks formal
             planning documents, such as a communication management plan2 or a project scope
             statement.3 Lack of an up-to-date project plan that reflects all the phases of the
             GFACS implementation, including the T&A phase, could lead to a lack of clarity as
             to what is to be accomplished, which could lead to project failure or cost and schedule
             overruns.

To address these conditions, OIG sent a draft audit survey report to RM on August 1, 2011, in
which it recommended that RM update the Exhibit 300 business case for the T&A phase of the
project, perform a detailed requirements analysis of the proposed T&A system, and update the
GFACS project management plan to reflect the T&A phase of the project. By implementing
these recommendations, RM will be better able to ensure the successful integration of the T&A
project in the larger GFACS implementation project.

In its August 26, 2011, response (see Attachment 2), RM agreed with Recommendation 3 and
addressed Recommendations 1 and 2. Based on RM’s response, OIG considers the three
recommendations resolved. They can be closed pending OIG’s review and acceptance of
documentation showing that the actions recommended have been taken. RM’s responses and
OIG’s replies are presented after each recommendation.

                                                  Background
The Department processes T&A for employees at overseas posts and domestic bureaus using a
partially manual process. The Department currently uses two separate T&A systems:
Web.TATEL, which is used domestically, and Win T&A, which is used at overseas posts.

2
  Project Management Institute, Project Management Body of Knowledge (A Guide) Fourth Edition. The
publication states that a communication management plan describes “communication needs and expectations for the
project; how and in what format information will be communicated; when and where each communication will be
made; and who is responsible for providing each type of communication. The communication management plan is
contained in, or is a subsidiary plan of, the project management plan.”
3
  Project Management Body of Knowledge (A Guide). The publication states the project scope statement is “the
narrative description of the project scope, including major deliverables, project assumptions, project constraints and
a description of work, that provides a documented basis for making future project decisions and for confirming or
developing a common understanding of project scope among the stakeholders.”



                                                     2
                                                UNCLASSIFIED
                                                 UNCLASSIFIED

American employees working both domestically and overseas are responsible for manually
tracking their T&A and providing this information to timekeepers for reporting. Based on
location, timekeepers input information either into Web.TATEL or Win T&A applications to
report T&A to Global Financial Services in Charleston, SC. Supervisors in bureaus or posts
manually review and approve reports from Web.TATEL or Win T&A.

Recording T&A for domestic employees is performed manually by employees, supervisors, and
timekeepers. Procedures used to track T&A vary by bureau. That is, some bureaus require
employees to submit biweekly timesheets and leave slips (Office of Personnel Management
[OPM] Form 71, Request for Leave or Approved Absence) to a supervisor for approval, some
bureaus do not require the use of timesheets, and still other bureaus use attendance logs (sign-in,
sign-out logs) to track employee attendance. The process for tracking T&A for overseas
employees is similar to the processes performed domestically. Timekeepers at posts enter T&A
data into Win T&A on a biweekly basis.

The current T&A processes have inherent problems. For instance, OIG’s June 2010 report4 on
Embassy Baghdad stated that internal controls for overtime at Embassy Baghdad were weak,
which left Embassy Baghdad vulnerable to waste, fraud, and mismanagement. For example,
employees and supervisors did not always sign timesheets, and employees used different types of
timesheets that often lacked key information, such as lines for supervisor or employee signatures
and dates of certification.

The June 2010 report was preceded by a July 2009 OIG inspection report5 on Embassy Baghdad,
which noted weak internal controls relating to T&A. For instance, individuals were reporting
data directly to Global Financial Services6 with little, if any, supervisory approval or verification
of time worked, thus leaving the process vulnerable to waste, abuse, and fraud.

Additionally, in a June 2006 inspection report on Global Financial Services,7 OIG noted that
proper procedures on T&A were “not always followed nor are adequate records maintained.”

The Department recognizes the need for reform in processing T&A. In that regard, RM is
undertaking a project to replace the Department’s current compensation systems with a COTS
system. The proposed integrated system, GFACS, will replace and combine the functionalities
of the three legacy applications: the Foreign Affairs Retiree Annuitant Distribution System, the
Foreign Service National System, and the Consolidated American Payroll System.

As a key part of this effort, RM is in the process of acquiring and implementing an automated
COTS-based T&A system. The proposed T&A system will interface with GFACS and is
intended to replace and unify the functions of Web.TATEL and Win T&A. The system will also
provide employee self-service features, such as the ability for employees to enter T&A data

4
  Embassy Baghdad Internal Controls for Overtime Pay (AUD/CG-10-25, June 2010).
5
  Embassy Baghdad, Iraq (ISP-I-09-30A, July 2009).
6
  In other parts of the report, Global Financial Services is also referred to as Financial Service Center.
7
  Global Financial Services – Charleston (ISP-I-06-33, June 2006).



                                                      3
                                                 UNCLASSIFIED
                                            UNCLASSIFIED

themselves, thus eliminating the need for timekeepers to manually track and enter the data. OIG
expects a unified T&A system that integrates with GFACS to provide the Department a more
efficient and cost-effective approach to manage the T&A function. Furthermore, a fully
automated T&A system will provide cost savings in many respects, including avoiding the costs
associated with T&A abuses and eliminating the need for a full-time timekeeper.

                                           Results of Survey
The intent of this audit was to determine whether the Department’s approach to implementing
the proposed automated T&A system will help assure management that the automated COTS
based T&A system will be effectively developed and implemented. However, during the audit
survey, OIG found that the T&A phase of the GFACS project is still in the planning and
development stages and that no system has been selected and that project management and
systems implementation documentation relating to T&A has not been developed. As a result, it
was not prudent to proceed with the audit. However, the audit survey revealed three potential
areas that require RM’s attention:

The GFACS Exhibit 300 Business Case Submission Lacks Adequate Information on the
T&A Phase of the Project
RM’s GFACS Exhibit 300 submission does not include adequate information on the T&A phase
of the project. Although the master cost and schedule8 contain budgeted amounts for the T&A
phase, the GFACS Exhibit 300 business case excludes justification for implementing the T&A
phase.

The Department’s FAM9 stipulates that a business case must be provided as required in Office of
Management and Budget (OMB) Circular No. A-11,10 Exhibit 300, as part of the budget request
process. This circular further states that OMB “uses the Exhibit 300 to make both quantitative
decisions about budgetary resources consistent with the Administration’s program priorities and
qualitative assessments about whether an agency’s programming processes are consistent with
OMB policy and guidance.” Additionally, the FAM11 states that the bureau is to ensure that
business cases “clearly justify the business need based on defined business requirements,
identification of the funds to be spent, and the timeframe for accomplishing mission critical
results.” The FAM further requires the business case to “be aligned to the agency’s mission
statements, goals, objectives, and performance plans.” Additionally, the FAM12 requires the
business case to

        (1) Justify why the program or project is necessary;

8
   Exhibit 300 component “Master Cost & Schedule: Comparison of Actual Work Completed and Actual Costs to
Current Approved Baseline” as of April 14, 2011. This document contains a comparison of actual work completed
and actual cost to current approved baseline.
9
   5 FAM 623a.
10
    OMB Circular No. A-11, “Preparation, Submission, and Execution of the Budget.”
11
    5 FAM 623d and c.
12
    5 FAM 623b.



                                                 4
                                            UNCLASSIFIED
                                         UNCLASSIFIED

          (2) Demonstrate how the program or project will add value in meeting the
          Department’s strategic and organizational goals and objectives; and
          (3) Show how the program or project is the most cost-effective approach.

An RM official stated that the amount of information RM can enter into the various Exhibit 300
sections, including the business case, is controlled by the Electronic Capital Planning and
Investment Control (eCPIC) system and therefore is outside the control of RM. However,
without a clearly defined business case for the T&A system, the Department will be unable to
effectively define measurable success criteria for the T&A phase of the project. These criteria
are essential for determining whether the project resulted in the benefits defined in the business
case. In addition, by not providing sufficient information, OMB may not have the information it
needs to determine compliance with OMB policy and guidance. Further, complete
documentation may determine the success or failure of the T&A phase, as complete
understanding of the project is key to gaining the support of OMB to fund the project to
completion.

          Recommendation 1. OIG recommends that the Bureau of Resource Management (RM)
          update the Global Foreign Affairs Compensation System (GFACS) Exhibit 300
          documentation to reflect a detailed business case for the time and attendance (T&A)
          phase of the project and that it consider, because of limitations in the amount of
          information that can be entered into the business case section, documenting additional
          business case details for the T&A phase of the project outside of the Electronic Capital
          Planning and Investment Control system.

          Bureau of Resource Management Response: RM stated that the GFACS team was
          preparing the OMB Exhibit 300 business case submission for FY 2013 and that it would
          be “updated to provide additional detail . . . advocated in OMB memoranda M-10-26 and
          M-10-31.”

          OIG Reply: Based on the response, OIG considers the recommendation resolved. This
          recommendation will be closed when OIG reviews and accepts documentation showing
          that the OMB Exhibit 300 business case submission for FY 2013 has been updated with
          the additional details OIG had recommended.

Evidence Regarding Performance of Adequate Requirements Analysis Is Lacking

The Department did not provide evidence to support the performance of a comprehensive
requirements analysis needed to understand customer or user needs and expectations from the
proposed COTS based T&A system.

The FAM13 requires that the users and/or customers participate in defining requirements through
interviews and providing reference materials to substantiate a requested replacement system.


13
     5 FAM 617.5, “User And/Customer.”



                                              5
                                         UNCLASSIFIED
                                             UNCLASSIFIED

Furthermore, the FAM14 requires project managers, before they begin any project, to complete a
“requirements analysis” document that clearly defines and sets forth all the requirements
approved by management for development, modification, or integration. An RM project official
provided a high-level functional requirements document on the current and future state of T&A15
intended for market research with potential COTS vendors as evidence of requirements analyses
performed to date. However, functional requirements that describe a high-level functionality of
the proposed system are not a substitute for user-defined or business requirements.

RM officials stated that they had identified two COTS products, namely Kronos WebTA16 and
Oracle Peoplesoft Time and Attendance,17 which are currently used in other Federal agencies and
that “as the result of performing due diligence,” they had conducted research into these two
products to determine whether the products could “serve as the starting point for addressing the
Department’s needs with respect to [T&A ].” The officials further stated that the “current and
future state” requirements document was used to evaluate the products and that once the software
acquisition was completed, RM would compile a “comprehensive requirements list that will
serve as the basis for conducting a ‘fit/gap’ analysis.”

However, OIG maintains that the better approach would be to compile comprehensive
requirements and perform the “fit/gap” analysis prior to acquiring the software. In its response
to OIG’s draft Notices of Findings and Recommendations dated April 14, 2011, RM officials
further stated that “[i]n recognition of the fact that vendors often choose not to make huge
investments in response to Market Surveys,” RM had taken an approach that will not
“[overwhelm] the vendor community with repetitive detail.” However, because T&A is a major
investment, it is prudent for RM to work closely with prospective vendors to determine how their
products’ capabilities will address the Department’s T&A needs without subjecting the
Department to excessive and expensive business process changes and attendant system
customizations.

Inadequate performance of effective requirements analysis at the beginning of the T&A phase of
the GFACS project could introduce many project risks, including a COTS based T&A
application that does not fully deliver the tasks for which it was purchased. These unmet
requirements could lead to user dissatisfaction with the new system, require additional scope
changes and additional time to implement, and result in potential cost overruns. Although,
according to RM officials, the T&A phase is currently not the focus of the overall GFACS
project, OIG noted that the eCPIC master cost and schedule contain budget amounts that were
obtained from prospective vendor estimates. Without the correct and approved user or
stakeholder requirements, cost estimates cannot be effectively determined and additional
amounts may be spent on customizations and integration, which may lead to cost overruns.

14
   5 FAM 621k, “General.”
15
   Bureau of Resource Management, Time and Attendance (T&A) Current and Future State, dated May 2010.
16
   The Department of Homeland Security and the U. S. States Agency for International Development are examples
of Federal agencies that currently use Kronos WebTA, one of the two systems identified by RM.
17
   The Departments of Agriculture and of Health and Human Services are examples of Federal agencies that
currently use the Oracle Peoplesoft Time and Attendance System, one of the two systems identified by RM.




                                                  6
                                             UNCLASSIFIED
                                       UNCLASSIFIED



       Recommendation 2. OIG recommends that the Bureau of Resource Management (RM)
       perform a detailed requirements analysis of the proposed time and attendance system to
       ensure that user, business, and system integration needs are fully understood and agreed
       to by all stakeholders before the new system is purchased and implemented. RM should
       additionally ensure that budgeted amounts recorded are based on complete and approved
       requirements.

       Bureau of Resource Management Response: In its response, RM stated that the
       Department “has chosen Peoplesoft to address its global compensation requirements and
       has successfully migrated the Department’s annuitant payroll from the legacy FARADS
       system to GFACS.” RM also stated that it “concluded that Peoplesoft integrated Time
       and Labor software was the most appropriate foundation for addressing the Department’s
       T&A needs in a cost effective manner.” RM stated that its conclusion resulted from
       “conducting a Market Survey” as well as vendor product demonstrations “tailored around
       the Department’s critical T&A business requirements.” According to RM, “These
       requirements will be finalized as appropriate to establish the foundation for conducting a
       ‘fit-gap’ analysis” and this activity will be performed before “development and
       deployment of a new T&A system” into the GFACS environment.

       OIG Reply: OIG recognizes that a T&A system based on the same platform (Peoplesoft)
       as GFACS provides many benefits, including easier integration with other GFACS
       modules as well as efficiencies derived from using similar development tools to perform
       needed customizations. Further, OIG commends RM for its plans to build on the
       requirements used to previously guide the market survey and product demonstrations by
       conducting a “fit-gap” analysis and ensuring that any user or business requirements gap is
       identified and resolved prior to developing and deploying the T&A system.

       Based on this response, OIG considers the recommendation resolved. This
       recommendation will be closed when OIG reviews and accepts updated requirements
       documentation showing that RM has identified and documented gaps between the
       Department’s requirements and the proposed system’s capabilities before the T&A
       system is deployed. Additionally, RM’s documentation should demonstrate measures it
       has taken or plans to take to address the identified gaps.

T&A Project Is Not Adequately Accounted For in the Overall GFACS Project
Management Plan

T&A implementation is one of the phases of the overall GFACS project. Although cost
projections have been recorded in the master cost and schedule, the GFACS project management
plan has not been updated to include the T&A phase. Thus the T&A phase of the
implementation does not have evidence of formal planning documents, such as a communication
management plan or a project scope statement.




                                            7
                                       UNCLASSIFIED
                                        UNCLASSIFIED

The FAM18 requires project managers to not begin a project without the documented approval of
a comprehensive project management plan, “which must be kept up to date by the project
manager throughout the project cycle.” The FAM19 further states that performance measures of
IT projects must be defined within the project plan and that the performance measures must,
among other requirements, clearly define the project’s milestones and goals in terms that can be
measured.

RM officials have indicated that the T&A phase is currently not the focus of the GFACS project.
However, given that the T&A phase has been initiated and budget amounts have been
determined, the GFACS project management plan should appropriately reflect the T&A phase in
a manner similar to that in which the other key GFACS milestones are reflected. Not having an
up-to-date project management plan that reflects all the phases of GFACS implementation,
including the T&A phase, could lead to a lack of clarity as to what is to be accomplished and
result in project failure or cost and schedule overruns.

          Recommendation 3. OIG recommends that the Global Foreign Affairs Compensation
          System project management plan be updated to reflect the time and attendance phase of
          the project.

          Bureau of Resource Management Response: RM concurred with this recommendation,
          stating that it will update the GFACS project management plan.

          OIG Reply: Based on the response, OIG considers this recommendation resolved. The
          recommendation will be closed after RM updates the GFACS project management plan
          and OIG determines that the plan adequately reflects the T&A phase of the project.

As the action office for the recommendations specified, OIG requests that you provide
information on actions taken or planned for the three recommendations within 30 days of the
date of this memorandum. Actions taken or planned are subject to followup and reporting in
accordance with the compliance response information.

OIG appreciates the cooperation and assistance provided by your staff during this audit survey.
If you have any questions, please contact Evelyn R. Klemstine, Assistant Inspector General for
Audits, at (202) 663-0372 or by email at klemstinee@state.gov or Jerry Rainwaters, Division
Director, at (703) 284-1841 or by email at rainwatersj@state.gov.

Attachments: As stated.

cc: CIO – Susan Swart




18
     5 FAM 621j.
19
     5 FAM 624a(1).



                                             8
                                        UNCLASSIFIED
                                             UNCLASSIFIED


                                                                                              Attachment 1
                                      Scope and Methodology
The Office of Inspector General (OIG) performed the audit survey for this report from February
through April 2011 in accordance with generally accepted government auditing standards.
Those standards require that OIG plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for the findings and conclusions based on the audit
objectives. OIG believes that the evidence obtained provides a reasonable basis for the findings
and conclusions based on the audit objective. OIG discussed its findings and proposed
recommendations with Bureau of Resource Management (RM) officials on May 2, 2011.

The objective of the audit was to determine to what extent the Department has (1) considered
relevant business processes in developing the time and attendance (T&A) system requirements,
(2) coordinated with system users to ensure needs are addressed, and (3) addressed applicable
information security requirements.

To conduct the audit survey, OIG reviewed project documentation, including the Global Foreign
Affairs Compensation System (GFACS) Exhibit 300 business case, the project management
plan, schedule and cost data, and functional requirements, and discussed these documents with
RM officials.

OIG performed the audit survey based on criteria contained in National Institute of Standards
and Technology (NIST) and Office of Management and Budget (OMB) publications and in the
Foreign Affairs Manual (FAM) and the Foreign Affairs Handbook (FAH). (See the section
“Criteria” in this attachment.)

Based on the audit survey, OIG determined that it was not prudent to proceed with the audit
because implementation of the T&A system was not at a state of development where
performance of audit steps and procedures would deliver meaningful results.

Use of Computer-Processed Data and Data Reliability

To assess the reliability of project schedule and cost data, OIG obtained online access to the
Electronic Capital Planning and Investment Control (eCPIC)1 system and obtained copies of the
GFACS Project Management Plan and the GFACS master cost and schedule. To verify the cost
amounts, OIG contacted the GFACS Project Management Office (PMO) point of contact to gain
an understanding of the development of the amounts. OIG understood that amounts such as the
cost variances were derived from Earned Value Management (EVM) calculations that were
inherent in the eCPIC system. Using EVM formulas obtained from the PMO, OIG manually
computed cost variances for a judgmentally selected sample of two GFACS milestones in order
to confirm the accuracy of the calculated variances contained in the master cost and schedule.



1
  The eCPIC system is a Government-owned application designed to help Federal agencies manage and control their
initiatives, portfolios, and investment priorities.
                                                  9
                                             UNCLASSIFIED
                                           UNCLASSIFIED


Criteria

To evaluate the adequacy of the T&A implementation approach against audit objectives, OIG
used the following criteria:

       OMB Circular No. A 130, appendix III,2 and OMB Memoranda M-10-26 and M-10-31.3
       NIST Special Publications (SP) and Federal Information Processing Publications.
       Department policies and procedures (FAMs and FAHs).

Furthermore, OMB Circular 130, appendix III, and NIST SP 800-53, revision 3,4 provide
minimum and recommended security controls, respectively, for all Federal information and
information systems. Additionally, NIST SP 800-645 emphasizes the importance of integrating
essential information security considerations into the Systems Development Life Cycle.

OMB memoranda M-10-26 and M-10-31 were issued in 2010 to Federal agencies requiring the
agencies’ immediate review of financial systems’ information technology (IT) projects
specifically and more broadly a review of all IT projects. The intent of memorandum M-10-26
was to emphasize “a re-examination of these expensive and lengthy investments in financial
modernization solutions in favor of shorter-term, lower-cost, and easier-to-manage solutions.”
The memorandum further states, “By dividing projects into smaller segments that deliver the
most critical functionality more quickly, Federal agencies will achieve greater functionality
sooner, better align projects to their organizations capacity to manage change, and reduce risk
and cost.”

OMB Memorandum M-10-31, which was to identify high risk IT projects, states, “CIO Council
agencies will be required to develop and put in place improvement plans for their highest-risk IT
projects.”

The FAM, 5 FAM 610,6 establishes guidance for developing and managing IT systems. For
example, section 617.5 of the FAM defines a user or customer as “anyone who will use the
system or end product being developed and/or accepts the end product(s) is a user or a
customer.” The FAM further states, “The user and/or customer specify that software
requirements are based on business needs by participating in interviews and providing reference
materials to substantiate requested replacement system.”

Additionally, 5 FAM 626.17 requires systems implementation efforts to include a study period
within which key activities should include, but not be limited to, the following:
2
  OMB Circular A-130, app. III, “Security of Federal Automated Information Resources.”
3
  OMB Memoranda M-10-26, Immediate Review of Financial Systems IT Projects, and M-10-31, Immediate Review
of Information Technology Projects.
4
  NIST SP 800-53, rev. 3, “Recommended Security Controls for Federal Information Systems and Organizations.”
5
  NIST SP 800-64, rev. 2, “Security Considerations in the System Development Life Cycle.”
6
  5 FAM 610, “Developing and Managing Information Technology (IT) Systems.”
7
  5 FAM 626.1, “Study Period.”



                                                10
                                           UNCLASSIFIED
                               UNCLASSIFIED



Define business, user, and system requirements. Business requirements must be
linked to the project’s mission and Bureau of Information Resource Management
(IRM) goals. Business requirements should not be expressed in terms of
solutions, but statements of need for specific functions (e.g., output from the
system). User requirements are expressed as attributes that describe the features
and capabilities needed to fit the system with the work environment and business
process.




                                    11
                               UNCLASSIFIED
                                UNCLASSIFIED


                                                                                    Attachment 2


                                                     United Slates Departme nt of State

                                                     Chief Financial Officer

                                                      Washingt.on, D. C. 20520

                                                       AUG 26 Z011

UNCLASSIFIED

MEMORANDUM

TO :         OIG - Harold W. Geisel

FROM:        RM - James L.   Mille~
SUBJECT: Draft Report on Audit Survey of Department of State Approach to
         Developing an Automated Time and Attendance System


This is in response to your request for comments on the draft report entitled " Audit
Survey of Department of State Approacb to Developing an Automated Time and
Attendance System".

RM is pleased that tbe OIG acknowledges the need to replace tbe Department's
two legacy Time and Attendance (T &A) systems and recognizes many of the
benefits associated with deploying software that will be fully integrated with
GFACS.

The draft audit survey identifies "three potential areas tbat require RM's attention" .
Each recommendation is discussed in turn .


  Recommendation 1. OIG recommends that the Bureau of Resource
  Management (RM) update the Global Foreign Affairs Compensation
  System (GFACS) Exhibit 300 documentation to reflect a detailed
  business case for the time and attendance (T&A) phase of the project and
  tbat it consider, because of limitations in the amount of information that
  can be entered into the business case section, documenting additional
  business case details for the T &A phase of the project outside of the
  Electronic Capital Planning and Investment Control (eCPIC) System.



                                     Unclassified




                                     12
                                UNCLASSIFIED
                            UNCLASSIFIED



                                Unclassified
                                     2

The GF ACS team is in the process of preparing the OMB Exhibit 300
business case submission for FY2013 . It will be updated to provide
additional detail such as business need, business benefit, project
timeframe, and alignment with the "shorter-term, lower-cost and easier-
to- manage solutions" principles advocated in OMB memoranda M-I 0-
26 andM-lO-31.


Recommendation 2. OIG recommends that the Bureau of Resource
Management (RM) perform a detailed requirements analysis of the
proposed time and attendance system to ensure that user, business, and
system integration needs are fully understood and agreed to by all
stakeholders before the new system is purchased and implemented. RM
should additionally ensure that budgeted amounts recorded are based on
complete and approved requirements.

As the OIG is aware, the Deparrment has chosen PeopleSoft to address
its global compensation requirements and has successfully migrated the
Deparrment's Annuitant payroll from the legacy FARADS system to
GFACS.

More recently, RM concluded that the PeopleSoft integrated Time and
Labor software was the most appropriate foundation for addressing the
Deparrment' s T&A needs in a cost-effective manner. This determination
was the result of conducting a Market Survey that included COTS
product demonstrations tailored around the Department' s critical T&A
business requirements. These requirements will be finalized as
appropriate to establish the foundation for conducting a "fit-gap"
analysis. This activity will be done prior to the development and
deployment of a new T&A system under GFACS.


Recommendation 3. OIG recommends that the Global Foreign Affairs
Compensation System project management plan be updated to reflect the
time and attendance phase of the project.

RM concurs with this recommendation and will update the GFACS
project management plan .




                                 13
                            UNCLASSIFIED
                            UNCLASSIFIED



                               Unclassified
                                    3


We thank you for the opportunity to comment on the Draft Report. While we
believe this audit survey was premature, we are committed to improving the
Department's T&A processes and systems in an efficient and cost-effective
manner.




                                 14
                            UNCLASSIFIED
